                             Report No. D-2011-055               March 25, 2011




                                     American Recovery and Reinvestment Act -
                     U.S. Army Corps of Engineers'
     Data Quality 'DWD4XDOLW\Review Processes RI&LYLO:RUNV)XQGLQJ
   for the IRUWKHPeriod Ending December 31, 2009,
Were Not (IIHFWLYH
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ARRA                          American Recovery and Reinvestment Act
HQ                            Headquarters
OMB                           Office of Management and Budget
RATB                          Recovery Accountability and Transparency Board
USACE                         U.S. Army Corps of Engineers
                                INSPECTOR GENERAL 

                              DEPARTMENT OF DEFENSE 

                                 400 ARMY NAVY DR IVE 

                            ARLINGTON , VIRGINIA 22202-4704 




                                                                            March 25, 20 II

MEMORANDUM FOR COMMAN DING GENERAL, U.S. ARMY CO RPS OF
                 ENGINEERS
               AUDITOR GENERAL, DEPARTMENT OF TI-IE ARMY

SUBJECT: American Recovery and Reinvestment Act - U.S. Army Corps of Engineers'
         Data Quality Review Processes of Civil Works Funding for the Period
         Ending December 3 1, 2009, Were Not Effective (Report No. D-20 11-05 5)

We are providing this repoli for rev iew and comment. The U.S. Army Corps of
Engineers did not have adequate controls in place to ensure the accuracy of recipient data
and to correct significant errors. Adequate data quality reviews are essential to prov ide
transparency and accountability of expenditures. Thi s ensures that the Ameri can publi c
knows how, when, and where the U.S. Army Corps of Engineers, C ivil Works, American
Recovery and Reinvestment Act fund s were spent. Thi s repoli discusses U.S. Army
Corps of Engineers control structure over the Civil Works data quality rev iews performed
for the period ending December 31,2009. We considered management comments on a
draft of this repoli when preparing the final report.

DoD Directive 7650.3 requires that recommendations be reso lved promptly. Some of the
comments prov ided by the U.S. Army Corps of Engineers Contracting Organization
through the Deputy Chi ef U.S. Army Corps of Engineers Headquatiers Internal Review
Office were nonresponsive. Therefore, we request that the Commanding General , U.S.
Army Corps of Engineers provide additional comments to Recommendations I .b and 2.d
by April 25 , 20 II.

Ifposs ible, send a .pdffile containing yo ur comments to auddbo@dod ig.mil. Cop ies of
your comments must have the actual signature of the authorizing official fo r your
organization. We are unable to accept the /S igned/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Intern et Protocol Router Network (SIPRNET).

We appreciate the courtes ies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).



                                      f~a . (1J~
                                      Patricia A. Marsh, CPA
                                      Assistant In spector General
                                      Financial Management and Reporting
Report No. D-2011-055 (Project No. D2009-D000FH-0182.010)                        March 25, 2011
	
	

                Results in Brief: American Recovery and
                Reinvestment Act — U.S. Army Corps of
                Engineers’ Data Quality Review Processes of
                Civil Works Funding for the Period Ending
                December 31, 2009, Were Not Effective
                                                           of Engineers prevented the American public from
What We Did                                                knowing how, when, and where its Recovery Act
We initiated this audit at the request of the              funds were spent.
Recovery Accountability and Transparency Board.
Our objective was to determine whether the U.S.            What We Recommend
Army Corps of Engineers fully implemented an               We recommend that the Commanding General,
effective internal control structure over recipient        U.S. Army Corps of Engineers:
reporting of the American Recovery and
                                                               •		 Implement procedures to ensure the U.S.
Reinvestment Act funds for Civil Works Programs
                                                                   Army Corps of Engineers is complying with
for the period ending December 31, 2009. The
                                                                   Office of Management and Budget (OMB)
U.S. Army Corps of Engineers did not have
                                                                   Memorandum M-10-08, “Updated Guidance
adequate controls in place to ensure the accuracy
                                                                   on the American Recovery and Reinvestment
of recipient data and to identify significant errors.
                                                                   Act – Data Quality, Non-Reporting
                                                                   Recipients, Reporting of Job Estimates,”
What We Found                                                      December 18, 2009, requirements.
The U.S. Army Corps of Engineers internal control
structure over recipient reporting of American                 •		 Develop and implement its data quality
Recovery and Reinvestment Act of 2009 funds for                    review processes and procedures to ensure the
Civil Works Programs for the period ending                         U.S. Army Corps of Engineers is accurately
December 31, 2009, was not effective. The                          identifying errors and validating jobs reported
internal control structure was not effective because               by recipients.
the U.S. Army Corps of Engineers did not:
                                                           Management Comments and
 •		 provide key award information to all 

     recipients;
	
	                                       Our Response
 •		 perform adequate data quality reviews;                The U.S. Army Corps of Engineers Contracting
 •		 accurately validate the number of “jobs
	
	           Organization (through the Deputy Chief U.S.
     retained or created” reported by recipients;
	
	      Army Corps of Engineers Headquarters Internal
     and 
                                                 Review Office) provided comments for each
 •		 deter future noncompliant recipients.                 recommendation. Not all comments were fully
                                                           responsive; therefore, we require additional
As a result, the U.S. Army Corps of Engineers did          information. We request that the Commanding
not provide adequate transparency and                      General, U.S. Army Corps of Engineers provide
accountability of expenditures. Specifically, only         comments in response to this report by April 25,
42 percent of recipient reports in                         2011. Please see the recommendations table on
www.recovery.gov matched the key award                     the back of this page.
information on the contracts maintained in the
Federal award database. Also, U.S. Army Corps

                                                        ii
	
                                                          
	
Report No. D-2011-055 (Project No. D2009-D000FH-0182.010)     March 25, 2011


Recommendations Table

         Management                  Recommendations            No Additional
                                    Requiring Comment       Comments Required
Commanding General, U.S.                  1.b, 2.d           1.a, 1.c, 2.a, 2.b, 2.c
Army Corps of Engineers

Please provide comments by April 25, 2011.




                                             iii
	
                                                
	
                         Table of Contents

Introduction                                                           1


      Audit Objective                                                  1

      Background on Recovery Act                                       1

      Internal Controls Ineffective for Data Quality Review Process    5


Finding. Recovery Act Data Quality Review Processes Need Improvement   6


      Internal Control Structure Needs to be Strengthened               6

      Not All Recipients Received Key Award Information                 6

      Improvement Needed in the Data Quality Review Process             8

      Jobs Reported Should be Properly Validated                        9

      Actions Necessary to Reduce Future Noncompliance                 10 

      Conclusion                                                       11 

      Recommendations, Management Comments, and Our Response           11 


Appendix

      Scope and Methodology of Audit                                   15 

             Prior Coverage of Recovery Act Data Review Process        16 


Management Comments

      U.S. Army Corps of Engineers                                     17 

Introduction
Audit Objective
Our objective was to determine whether the U.S. Army Corps of Engineers (USACE)
fully implemented an internal control structure that was effective in ensuring recipient
data was reported completely, accurately, and in a timely manner; and that any material
omissions or significant errors were identified and corrected for the period ending
December 31, 2009. 1 We performed this audit at the request of the Recovery
Accountability and Transparency Board (RATB). Our audit focused on the internal
controls, policies, and procedures defined in the Office of Management and Budget
(OMB) Memorandum M-10-08, “Updated Guidance on the American Recovery and
Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of Job
Estimates,” December 18, 2009. OMB Memorandum M-10-08 required agencies
disbursing American Recovery and Reinvestment Act (Recovery Act or ARRA) funds to
implement a limited data quality review process to identify material omissions and
significant errors, and to notify award recipients of the need to make complete, accurate,
and timely adjustments. See the Appendix for a discussion of our scope and
methodology.

Background on Recovery Act
Public Law 111-5, American Recovery and Reinvestment Act of 2009, February 17,
2009, provided supplemental appropriations to:
    •		 preserve and create jobs;
    •		 promote economic recovery;
    •		 assist those most affected by the recession;
    •		 provide investments to increase economic efficiency through technological
        advances in science and health; and
    •		 invest in transportation, environmental protection, and other infrastructure.
Congress appropriated $4.6 billion in Recovery Act funds to USACE for the following
programs: Investigations, Construction, Operation and Maintenance, Regulatory
Program, Formerly Utilized Sites Remedial Action Program, and Mississippi River and
Tributaries. The funds are executed through contracts, grants, and cooperative
agreements.

The Recovery Act is an unprecedented effort to ensure the responsible distribution of
funds for the Act’s purposes and to provide transparency and accountability of
expenditures so that the public would know how, when, and where tax dollars are spent.
Recovery Act implementation guidance was issued to ensure the responsible distribution


1
 A subsequent report will be issued by the Department of Defense Office of the Inspector General for the
audit of the Department of Defense Data Quality Review Processes for the Period Ending December 31,
2009. The report will include a review of the U.S. Army Corps of Engineers Military Programs.


                                                    1
	
	
of funds for the Act’s purposes and to provide transparency and accountability of
expenditures. The Recovery Act established the RATB and made it responsible for
coordinating and conducting oversight of Federal spending under the Recovery Act to
prevent fraud, waste, and abuse.

Reporting Requirements for Recovery Act
Public Law 111-5, American Recovery and Reinvestment Act of
2009 (Recovery Act), February 17, 2009
The Act requires recipients to report the following within 10 days after the end of each
calendar quarter: the total amount of funds received, expended, or obligated; description
of projects or activities; estimated number of jobs created or retained; and detailed
information on any contracts or grants awarded to sub-recipients. The Act defines a
recipient as any entity that receives Recovery Act funds directly from the Federal
Government through contracts, grants, or loans, and includes States that receive funds.
The RATB was required to establish and maintain a user-friendly, public-facing website
to foster greater accountability and transparency in the use of covered funds. The website
should be a portal or gateway to key information relating to this Act and provide
connections to other Government websites with related information. 2

OMB Memorandum M-10-08, “Updated Guidance on the
American Recovery and Reinvestment Act – Data Quality,
Non-Reporting Recipients, Reporting of Job Estimates,”
December 18, 2009
OMB Memorandum M-10-08 provided guidance for improving the quality of data
reported under the Recovery Act. It outlines important steps Federal agencies must take
to identify non-reporting recipients and bring such recipients into compliance with the
Recovery Act. The memorandum provides a:
    •		 standard methodology for effectively implementing reviews of the quality of data
        submitted by recipients,
    •		 format and dates to provide OMB with the list of awards subject to recipient
        reporting, and
    •		 format and dates to provide OMB with the associated list of specific recipients
        who failed to submit required reports.




2
  The RATB established a nationwide data collection system at www.federalreporting.gov for recipients to
report the information required by the Recovery Act. The RATB makes the information reported by
recipients available to the public at www.recovery.gov.



                                                   2
	
Federal agencies are to establish data quality plans that describe, at a minimum, their data
quality review processes with a focus on significant reporting errors and material
omissions. The memorandum emphasizes that significant errors in the following data
fields are of major concern:
    •		   Federal amount of the award,
    •		   number of jobs retained or created,
    •		   Federal award number, and
    •		   recipient name.
Material omissions include the following:
    •		 failure of a Federal Recovery Act award recipient to report on a received award as
        required by the terms of their award, and
    •		 data in a report that is not responsive to a specific data element.
This memorandum also updates OMB Memorandum M-09-21, “Implementing Guidance
for the Reports on Use of Funds Pursuant to the American Recovery and Reinvestment
Act of 2009,” Section 5, Reporting on Jobs Creation Estimates by Recipients, June 22,
2009. The update simplifies the manner in which job estimates are calculated and
reported. Finally, the memorandum provides a series of practical and user-friendly
examples for applying the simplified formula.

Recipient Reporting Cycles
September 30, 2009, Recipient Reporting Cycle
DoD Inspector General Report No. D-2010-RAM-001, “U.S. Army Corps of Engineers
Data Quality Review Process for Civil Work Programs,” October 30, 2009, determined
that USACE performed limited data quality reviews and documented its review processes
in USACE’s internal Recovery Act guidance, 3 issued July 2009. USACE internal
Recovery Act guidance outlined the responsibilities of USACE Headquarters (HQ) and
Major Subordinate Commands, District Centers, and Field Operating Activities (USACE
Locations) for the reporting cycle phases. The reviews were to identify material
omissions and significant reporting errors, and to notify Federal contract, grant, and
partnership agreement recipients of the need to make appropriate and timely changes.

According to the DoD OIG report, USACE HQ developed an ARRA data validation tool
during the initial reporting cycle to assist in performing limited data quality reviews of
reports filed by recipients. The ARRA data validation tool compared contract data from
the Federal Procurement Data System-New Generation (Federal award database) to the
data reported by recipients on www.federalreporting.gov. The ARRA data validation
tool generated reports that identified contract recipients that had not registered or filed a
report on a contract award, and discrepancies in selected contract data elements.



3
 USACE internal Recovery Act guidance establishes requirements for U.S. Army Corp of Engineers, Civil
Works, as well as U.S. Army Corp of Engineers Military Programs.


                                                  3
	
The DoD OIG report indicated that USACE had plans to improve the completeness and
accuracy of reports filed by recipients on www.federalreporting.gov. However, as of
October 21, 2009, USACE reported that about one-third of all contract recipients had not
registered, and recipients had not submitted a report on about one-half of the contracts
awarded. As a result, the audit team determined the data reported on www.recovery.gov
for the quarter ending September 30, 2009, might have contained material omissions or
significant reporting errors, resulting in significant risk that the public was not fully
informed of the status of a Recovery Act project or activity.

December 31, 2009, Recipient Reporting Cycle
In November 2009, USACE established an ARRA Risk Management Plan 4 that built on
the USACE internal control program, to ensure adequate controls were in place and
operating effectively to safeguard government assets. As part of the internal control
program, Division Commanders and Headquarters Staff heads were required to certify
annually that they reviewed existing controls and verified that the controls were in place
and effective. To augment this annual process, USACE was to review all management
areas to determine whether controls were in place to manage Recovery Act funding.
USACE would implement additional controls if needed. Subordinate commands and
headquarters staff would provide additional certification to meet the unique requirements
of the Recovery Act.

In December 2009, USACE HQ issued updated internal Recovery Act guidance that
established updates to the USACE data quality plan based on OMB requirements. The
USACE internal Recovery Act guidance required USACE HQ to conduct training and
make any updates to its ARRA data validation tool prior to the beginning of each
reporting cycle. The USACE internal Recovery Act guidance also required USACE HQ
to review recipient reported data in www.federalreporting.gov and provide updated
extracts of the ARRA data validation tool to the USACE Locations on a daily basis.
Based on their review of the ARRA data validation tool, USACE Locations then
provided comments to recipients with any suggested changes.

USACE also updated its internal Recovery Act guidance to require the USACE Locations
to work with the recipients to register on www.federalreporting.gov. Further, the
USACE internal Recovery Act guidance required the USACE Locations to distribute key
award information to the recipients at the time of the award, and provide a written notice
to a recipient if it had not reported during the first seven to eight days of the reporting
cycle.




4
 The USACE ARRA Risk Management Plan establishes requirements for the U.S. Army Corps of
Engineers, Civil Works, as well as the U.S. Army Corps of Engineers Military Programs.


                                               4
	
Internal Controls Ineffective for Data Quality Review
Process
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal
controls that provides reasonable assurance that programs are operating as intended and
to evaluate the effectiveness of the controls. We identified internal control weaknesses
for the USACE data quality review process. Internal controls were not sufficient to
ensure USACE provided key award information to all recipients, performed adequate
data quality reviews, accurately validated the number of “jobs retained or created”
reported by recipients, and deterred future noncompliant recipients. We will provide a
copy of the report to the senior official responsible for internal controls at USACE.




                                            5
	
                                             
	
Finding. Recovery Act Data Quality Review
Processes Need Improvement
The U.S. Army Corps of Engineers (USACE) internal control structure over recipient
reporting of American Recovery and Reinvestment Act of 2009 (Recovery Act or
ARRA) funds for the period ending December 31, 2009, was not effective. The internal
control structure was not effective because USACE personnel did not:
   •		 provide key award information to all recipients;
   •		 perform adequate data quality reviews;
   •		 accurately validate the number of “jobs retained or created” reported by
	
	
       recipients; and
	
	
   •		 deter future noncompliant recipients.
As a result, USACE did not provide transparency and accountability of expenditures. In
addition, USACE prevented the public from knowing how, when, and where the USACE
Recovery Act funds were spent.

Internal Control Structure Needs to be Strengthened
USACE did not establish an adequate internal control structure over recipient reporting of
Recovery Act funds. As required by OMB Memorandum M-10-08, “Updated Guidance
on the American Recovery and Reinvestment Act – Data Quality, Non–Reporting
Recipients, Reporting of Job Estimates,” December 18, 2009, USACE developed a data
quality plan and documented it in USACE’s internal Recovery Act guidance. The
USACE internal Recovery Act guidance outlined the responsibilities of USACE
personnel and discussed the OMB Memorandum M-10-08 requirements intended to
improve the quality of data reported under the Recovery Act. However, USACE controls
did not ensure its personnel implemented the OMB requirements to comply with the
Recovery Act and to provide transparency and accountability to the American public.

Not All Recipients Received Key Award Information
USACE Locations did not provide key award information to all of their Recovery Act
award recipients. OMB Memorandum M-10-08 required Federal agencies to provide
recipients with the following key award information, by December 22, 2009, to improve
data quality and reduce inaccuracies in recipient reported data:
   •		   award type,
   •     award number,
	
                       
	
   •     order number for federally awarded contracts,
	
                                                      
	
   •		   funding agency code,
   •		   awarding agency code,
   •		   Government contracting office code,
   •		   award date,
   •		   award amount,

                                             6

    •   Catalogue of Federal Domestic Assistance Number,
    •   activity code, and
    •   program source code.
After providing the key award information, each Federal agency must certify to OMB
that all award recipients received required key award information and identify the format
or process they used to provide the key award information. For all future awards, the
                                       awarding agency is required to provide the key
  Of 10 awards reviewed, USACE         award information at the time of the award.
    Location personnel could not       Although Headquarters, USACE (USACE HQ)
   demonstrate that they provided      personnel provided OMB a certification of
      recipients their key award       completion for the Recovery Act recipient
     information for two awards        notification process, USACE Location personnel
      valued at $64.8 million…         did not notify all recipients. Of 10 awards 5
                                       reviewed, USACE Location personnel could not
demonstrate that they provided recipients their key award information for two awards
valued at $64.8 million, as required by OMB Memorandum M-10-08.

USACE Location personnel did not provide key award information to all of their
recipients because they did not consistently implement USACE internal Recovery Act
guidance requiring the USACE Location personnel to provide the key award information
to their recipients. The first USACE Location stated they provided a letter to the
recipient but erroneously excluded the attachment that contained the key award
information. The second USACE Location acknowledged they did not send key award
information to the recipient and explained that it was an oversight. By not providing key
award information, there is a higher likelihood that recipients will report incorrect key
award information.

In March 2010, USACE HQ issued updated internal Recovery Act guidance that replaced
the guidance used for the October 1, 2009, through December 31, 2009, reporting period.
The updated internal Recovery Act guidance specified seven letters that USACE
personnel will use throughout the recipient reporting process. Three of the letters contain
enclosures with the key award information, decreasing the likelihood that recipients will
report incorrect key award information. USACE HQ should require that USACE
Location personnel fully implement the updated USACE internal Recovery Act guidance
to ensure they provide key award information to all recipients at the time of the award
and increase reporting accuracy. To ensure implementation of the guidance, USACE HQ
personnel should confirm that USACE Location personnel distributed key award
information to all recipients.




5
  We selected the 10 highest-dollar value awards through October 2009 that had a unique district assigned
to them, in order to determine whether districts were providing key award information to the recipients.

                                                    7

Improvement Needed in Data Quality Review Process
USACE controls did not ensure that USACE HQ personnel performed adequate data
quality reviews that accurately identified all significant errors and material omissions in
recipient reported data. Specifically, USACE’s listings of significant errors, material
omissions, and noncompliant recipients reported to OMB were not accurate. OMB
Memorandum M-10-08 requires Federal agencies to conduct a data quality review that, at
a minimum, focuses on significant errors and material omissions. In addition, Federal
agencies must compile and submit their listings of significant errors, material omissions,
and noncompliant recipients to OMB. However, USACE personnel did not accurately
identify all significant errors and material omissions in recipient reported data because
USACE HQ personnel stated they primarily focused on ensuring all recipients reported
data into www.federalreporting.gov regardless of the completeness and accuracy of the
data.

USACE HQ personnel reported the following errors to OMB on its lists of significant
errors, material omissions, and noncompliant recipients:
    •   140 Significant Errors 6
    •   0 Material Omissions
    •   267 Noncompliant Recipients
However, USACE personnel reported data identified 728 errors. We were able to
validate 127 of the significant errors and 217 of the noncompliant recipients USACE
personnel reported to OMB. USACE personnel also did not report 313 material
omissions to OMB. In addition, USACE had 352 contracts in the Federal award database
that did not have corresponding data in www.recovery.gov. Therefore, USACE HQ
personnel should have reported at least an additional 352 errors on the noncompliant
listing if the recipients had not reported, or on the significant error listing if the recipients
reported the information incorrectly in www.recovery.gov.

 Only 1191, or 42 percent, of recipient reports in                 Only 1191, or 42 percent, of
www.recovery.gov matched the key award                                 recipient reports in
information 7 on the 2849 contracts/awards                       www.recovery.gov matched the
maintained in the Federal award database.                         key award information on the
Recipients frequently reported an incorrect major                    2849 contracts/awards
program code or did not report an order number.                     maintained in the Federal
Although the USACE internal Recovery Act                                award database.


6
  USACE identified 217 errors in its significant error listing; however, based on OMB Memorandum
M-10-08, only 140 of these errors qualified as “significant errors.”
7
  The key award data elements "award type" and "Catalogue of Federal Domestic Assistance Number" were
excluded from DoD OIG testing. The Award Type was excluded because the Federal award database only
includes contracts so it was not necessary to do an award type comparison. The CFDA Number was
excluded because it only applies to grants; therefore the Federal award database for contracts did not
include this field. In addition to the key award information identified by OMB, the DoD OIG also matched
on the Dun and Bradstreet Universal Numbering System number, as this is one of the fields used to identify
significant errors.

                                                    8

guidance aims for USACE personnel to review 100 percent of recipient reports, USACE
Location personnel stated they only reviewed recipient reports with potential deficiencies
identified by the ARRA data validation tool. Without an adequate review process in
place to accurately identify significant errors, material omissions, and noncompliant
recipients, recipient reported data uploaded to www.recovery.gov might not be complete
and accurate. USACE HQ personnel should revise their data quality review process to
accurately identify significant errors, material omissions, and noncompliant recipients in
accordance with OMB Memorandum M-10-08. In addition, personnel at USACE
Locations should review 100 percent of recipient reports to potentially identify
deficiencies not recognized by the ARRA data validation tool. USACE HQ personnel
should also update USACE internal Recovery Act guidance to document the new data
quality review procedures.

Jobs Reported Should be Properly Validated
USACE HQ personnel did not accurately validate the number of “jobs retained or
created” reported by the recipients. OMB Memorandum M-10-08 requires that Federal
agencies’ data quality reviews focus on significant errors, including the number of “jobs
retained or created.” Accurate job reporting allows the public to understand the impact of
Recovery Act funding on employment. However, USACE HQ personnel did not update
their job validation logic check to meet OMB requirements. USACE HQ personnel
stated the invoice data necessary to update its methodology were not readily available.

OMB Memorandum M-10-08 required recipients to report job estimates on a
quarterly, rather than cumulative, basis. The updated requirements simplified how job
estimates were calculated and aligned with the Government Accountability Office’s
                                        recommendation to “standardize the period of
    Accurate job reporting allows       measurement for Full Time Equivalents.” 8
     the public to understand the       Although OMB updated the job estimation
   impact of Recovery Act funding       reporting requirements, USACE HQ personnel
           on employment.               based their job validation logic check on
                                        subsequently updated OMB Memorandum
M-09-21, “Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009,” June 22, 2009, that required
recipients to report job estimates on a cumulative basis. To comply with the updated
guidance, USACE HQ personnel stated they would need the amounts invoiced by the
recipients for the quarter. However, the amount invoiced for the quarter was not
available in www.federalreporting.gov, and USACE personnel stated they could not
readily retrieve the data from its financial management system.



8
 In Government Accountability Office report number GAO-10-224T, “Recovery Act- Recipient Reported
Jobs Data Provide Some Insight into Use of Recovery Act Funding, but Data Quality and Reporting Issues
Need Attention,” November 19, 2009, GAO stated that failure to standardize on a consistent basis prevents
meaningful comparison or aggregation of Full Time Equivalent data. Therefore, the Government
Accountability Office recommended that OMB “standardize the period of measurement for Full Time
Equivalents.”

                                                    9

In addition, the USACE HQ job validation logic check did not identify recipients who
under-reported the number of “jobs retained or created.” USACE HQ did not identify
those who under-reported because it was primarily concerned with recipients who
over-reported job estimates by unintentionally reporting the dollar amount of their award
in the “jobs retained or created” field in www.federalreporting.gov. By using inadequate
logic checks to review the number of “jobs retained or created,” USACE’s number of
jobs reported by recipients on www.recovery.gov may be inaccurate. In addition, without
a proper review process to validate the number of jobs reported, USACE HQ may have
omitted additional errors on its significant error listing.

In order for USACE to update its job validation logic check, USACE personnel stated
that they requested that the RATB add a data field in www.federalreporting.gov for the
amount invoiced for the quarter. In the interim, USACE HQ personnel should develop
alternative procedures to obtain the amount invoiced for the quarter to accurately validate
the number of “jobs retained or created.” USACE personnel should also develop their
job validation methodology to ensure it identifies recipients who under-report the number
of “jobs retained or created.” In addition, USACE personnel should fully document their
job validation procedures, incorporating the new OMB Memorandum M-10-08
requirements, in its internal Recovery Act guidance.

Actions Necessary to Reduce Future Noncompliance
USACE Location personnel did not take action to reduce noncompliant recipients in
subsequent reporting periods. OMB Memorandum M-10-08 requires Federal agencies to
submit a listing of recipients who failed to report by the quarterly deadline (noncompliant
recipients) to OMB. In addition, Federal
agencies are required to determine an          ...USACE Location personnel did not send
appropriate outreach method and                “Warning on Performance” letters to 5 of
establish contact with each noncompliant               10 recipients they reported as
recipient. USACE HQ personnel                     noncompliant for two reporting cycles.
provided OMB a list of noncompliant                Furthermore, the five “Warning on
recipients to whom it sent “Warning on               Performance” letters the USACE
                       9
Performance” letters. However,                 Location   personnel sent to recipients were
USACE Location personnel did not send          dated after USACE HQ notified OMB that
“Warning on Performance” letters to 5               it had contacted the noncompliant
                 10
of 10 recipients they reported as                                recipients.
noncompliant for two reporting cycles.
Furthermore, the five “Warning on Performance” letters the USACE Location personnel
sent to recipients were dated after USACE HQ notified OMB that it had contacted the
noncompliant recipients.



9
  Although reported on the noncompliant listing, USACE HQ did not send, or represent that they sent,
	
	
“Warning on Performance” letters to recipients who were only noncompliant because USACE HQ
	       
	
incorrectly instructed the recipient not to report.


10
   We selected the 10 highest-dollar value awards from the list of recipients reported as noncompliant for
	
	
two reporting cycles.
	
	

                                                      10 

USACE Location personnel stated they did not notify these recipients because USACE
HQ did not provide guidance to instruct the USACE Location personnel to contact each
recipient who failed to report. USACE internal Recovery Act guidance required the
USACE Location personnel to contact recipients if a recipient may become
noncompliant, or if USACE identified a significant error or material omission in the
recipient reported data. However, the USACE internal Recovery Act guidance did not
instruct USACE Location personnel to contact a recipient if the recipient became
noncompliant. As a result, noncompliant recipients were not contacted and may continue
to be noncompliant in subsequent reporting periods.

The USACE internal Recovery Act guidance issued in March 2010 specified seven letters
that USACE will use throughout the recipient reporting process. USACE is to distribute
three of the letters to noncompliant recipients to deter current and future noncompliance.
These letters notify noncompliant recipients of their failure to submit a report and warn
them that USACE will submit a performance report reflecting recipients’ noncompliance.
USACE HQ should require that USACE Location personnel fully implement the updated
USACE internal Recovery Act guidance to reduce the level of noncompliance in
subsequent periods. In addition, USACE HQ personnel should confirm with USACE
Location personnel that they have notified all noncompliant recipients prior to notifying
OMB.

Conclusion
USACE did not implement a control structure that complied with OMB Memorandum
M-10-08 requirements over recipient reporting of Recovery Act funds. As a result,
data quality reviews did not adequately identify significant errors, material omissions,
and noncompliant recipients. Without effective controls to ensure recipient reported data
is complete and accurate, there is an increased risk that the data will not provide
transparency and accountability of expenditures so that the public will know how, when,
and where USACE Recovery Act funds are spent. USACE should strengthen its
procedures and management oversight to ensure controls are in place and operating
effectively to comply with Recovery Act unique requirements.

Recommendations, Management Comments, and Our
Response
We recommend that the Commanding General, U.S. Army Corps of Engineers:
1. Implement procedures to ensure the U.S. Army Corps of Engineers, Civil Works,
Major Subordinate Commands, District Centers, and Field Operating Activities
follow updated USACE internal Recovery Act guidance and properly:

       a. Provide key award information to all Recovery Act award recipients.

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization (through the Deputy Chief U.S. Army Corps of
Engineers Headquarters Internal Review Office) agreed and stated that USACE Location

                                           11 

personnel were instructed to keep hard copies of all letters sent to recipients and certify
100 percent compliance to USACE Headquarters prior to the beginning of the reporting
period.

Our Response
Comments from the USACE Contracting Organization were responsive. USACE has
implemented procedures to ensure that the USACE Location personnel follow the
updated USACE internal Recovery Act guidance. We require no additional comments.

       b.		 Notify all noncompliant recipients of their failure to submit required
            reports.

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed and stated that the subsequently issued
Fragmentary Order #26 to Operations Order 2009-11, “USACE Execution of the
American Recovery and Reinvestment Act 2009 (Recipient Reporting),” March 9, 2010,
instructed USACE Location personnel to contact any noncompliant recipients through the
use of specific correspondence.

Our Response
We consider the USACE Contracting Organization comments nonresponsive. We
acknowledged in the report how USACE internal Recovery Act guidance issued in March
2010 did contain three sample letters USACE Location personnel were to provide
noncompliant recipients to deter current and future noncompliance. USACE
Headquarters did not identify the procedures implemented to ensure USACE Location
personnel properly followed the updated USACE internal Recovery Act guidance.
Accountability should be established to ensure the USACE Location personnel fully
implement the updated USACE internal Recovery Act guidance. We ask that the
Commanding General, USACE, identify specific procedures implemented to ensure
USACE Location personnel follow the updated internal Recovery Act guidance.

       c.		 Review 100 percent of Recovery Act recipient reports, in accordance with
            Recovery Act guidance to identify differences not recognized by the
            ARRA validation tool.

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed and stated that to ensure USACE Location
personnel are reviewing all required fields in accordance with Recovery Act guidance,
USACE Headquarters personnel take a random sample of recipient reports verifying that
USACE Location personnel have properly reviewed the OMB Memorandum M-10-14
required fields.




                                             12 

Our Response
Comments from the USACE Contracting Organization were responsive. USACE
implemented procedures to ensure that the USACE Location personnel follow the
updated USACE internal Recovery Act guidance. We require no additional comments.

2. Develop and implement U.S. Army Corps of Engineers data quality review
processes and procedures, in accordance with Office of Management and Budget
(OMB) Memorandum M-10-08, “Updated Guidance on the American Recovery and
Reinvestment Act – Data Quality, Non-Reporting Recipients, Reporting of Job
Estimates,” December 18, 2009, to:

       a.		 Accurately identify all significant errors, material omissions, and
            noncompliant recipients.

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed and stated that the ARRA validation tool
was updated during the April 2010 and July 2010 time periods to assist USACE Location
personnel to accurately identify all noncompliant recipients, significant errors, material
omissions, and other data anomalies listed in OMB Memorandum M-10-08.

Our Response
Comments from the USACE Contracting Organization were responsive. We require no
additional comments.

       b.		 Obtain the amount invoiced for the quarter to accurately validate the
            number of “jobs retained or created.”

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed stating that the quarterly invoiced amount
data from the U.S. Army Corps of Engineers Financial Management System was
included in the daily review process beginning in the July 2010 reporting period.
USACE used this data in conjunction with developed “full-time equivalent” estimates to
evaluate recipient reported estimates for accuracy.


Our Response
Comments from the USACE Contracting Organization were responsive. We require no
additional comments.

       c.		 Identify recipients who under-report the number of “jobs retained or
            created.”




                                            13 

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed and stated that they added the ability to
evaluate under-reported full-time equivalents to the ARRA validation tool during the July
2010 reporting period. This should allow agency reviewers to identify recipients
reporting full-time equivalents totals below USACE projected totals.

Our Response
Comments from the USACE Contracting Office were responsive. We require no
additional comments.

       d.		 Confirm each quarter that U.S. Army Corps of Engineers, Civil Works,
            Location personnel have properly distributed key award information and
            notified all noncompliant recipients.

U.S. Army Corps of Engineers Comments
The USACE Contracting Organization agreed and stated that the subsequently issued
Fragmentary Order #26 instructed USACE Location personnel to contact any
noncompliant recipients through the use of specific correspondence.

Our Response
Although the USACE Contracting Organization agreed, we consider their comments
nonresponsive. We acknowledged in the report how USACE internal Recovery Act
guidance issued in March 2010 contained seven letters that USACE Location personnel
will use throughout the recipient reporting process. Three of the letters contain
enclosures with the key award information or were directed towards noncompliant
recipients. Our recommendation was to develop and implement data quality review
processes and procedures to ensure key award information was properly distributed and
the notification of noncompliant recipients by USACE Location personnel. The updated
USACE internal Recovery Act guidance does not include processes or procedures
requiring USACE Headquarters personnel to independently confirm that the USACE
Location personnel properly implemented the updated USACE internal Recovery Act
guidance. Proper oversight and accountability should be established to ensure the
USACE Location personnel fully implement the updated guidance. We request that the
Commanding General, USACE provide additional comments in response to the final
report detailing how USACE Headquarters personnel will confirm each quarter that
USACE Location personnel have properly distributed key award information and notified
all noncompliant recipients.




                                           14 

Appendix. Scope and Methodology of Audit
We conducted this audit from March 2010 through November 2010 in accordance with
generally accepted government auditing standards except for the fieldwork auditing
standards for identifying investigations, assessing fraud risk, and identifying data and
information system controls because of the limited time required by the Recovery Act
and Transparency Board to complete this audit. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives.
Omitting these procedures did not limit our ability to conclude on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our conclusions.

We performed analysis on data from www.federalreporting.gov, www.recovery.gov, and
U.S. Army Corps of Engineers (USACE), Civil Works contracts from the Federal award
database. Our review focused on American Recovery and Reinvestment Act (Recovery
Act or ARRA) funds awarded through contracts. We compared key award information
contained in the Federal award database to key award information reported in
www.federalreporting.gov and subsequently uploaded to www.recovery.gov, for the
period ending December 31, 2009. We also reviewed and evaluated the significant
errors, material omissions, and noncompliant recipients that USACE reported to the
Office of Management and Budget (OMB).

We identified the following guidance for reporting and data quality review requirements
for USACE and Recovery Act award recipients: OMB Memorandum M-10-08, “Updated
Guidance on the American Recovery and Reinvestment Act – Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates” December 18, 2009; and
USACE internal Recovery Act guidance, “Fragmentary Order #25 to OPERATIONS
ORDER 2009-11 (USACE Execution of the American Recovery & Reinvestment Act
2009) (Recipient Reporting),” December 2009. We interviewed Headquarters, USACE
personnel and USACE contracting officers. We also performed a limited walk-through at
USACE HQ to obtain an overview of the USACE data quality review procedures.

We selected 2 judgment samples of 10 USACE Recovery Act awards from the Federal
award database. To determine whether USACE provided key award information to
Recovery Act recipients, we selected the 10 highest dollar value contracts with an award
date prior to October 2009. To determine whether USACE took action to reduce future
noncompliant recipients, we selected the 10 highest dollar value contracts with recipients
who were on the noncompliant recipient list for the last 2 reporting periods (quarters
ending September 2009 and December 2009).




                                            15 

Use of Computer-Processed Data
We did not rely on computer-processed data or the validity or accuracy of the computer
processed data in the performance of this audit.

Prior Coverage of Recovery Act Data Review Process
The Government Accountability Office (GAO), the Department of Defense Inspector
General (DoD IG), and the Military Departments have issued reports and memoranda
discussing DoD review processes for Recovery Act data. You can access a full list of
unrestricted reports at http://www.recovery.gov/accountability.

GAO
GAO Report No. 10-581, “Recovery Act—Increasing the Public’s Understanding of
What Funds Are Being Spent on and What Outcomes Are Expected,” May 27, 2010
GAO Report No. 10-224T, “Recipient Reported Jobs Data Provide Some Insight into Use
of Recovery Act Funding, but Data Quality and Reporting Issues Need Attention,”
November 19, 2009
GAO Report No. 09-672T, “Recovery Act--GAO's Efforts to Work with the
Accountability Community to Help Ensure Effective and Efficient Oversight,”
May 5, 2009


DoD IG
DoD IG Memorandum No. D-2010-RAM-002, “Results From the Audit of DoD’s
American Recovery and Reinvestment Act of 2009 Initial Data Quality Review
Implementation,” November 3, 2009
DoD IG Memorandum No. D-2010-RAM-001, “US Army Corps of Engineer Data
Quality Review Process for Civil Works Programs,” October 30, 2009
DoD IG Memorandum No. D-2009-RAM-001, “Results from Assessment of DoD's Plans
for Implementing the Requirements of the American Recovery and Reinvestment Act of
2009,” June 23, 2009




                                          16 

U.S. Army Corps of Engineers Comments





                                   DEPARTMENT OF THE ARMY
                                    u.s. ARMY CORPS OF ENGINEERS
                                             .... 1
                                                  , GST. NW
                                       WASHINGTON,, D.C. 20314·1000
                                       WASHINGTON



      CEIIR                                                               10 December 2010

      MEMORANDUM FOR Department of Defense
                                   Defense,, Office of the Inspector Genera
                                                                     Generall ,
                   400 Army Navy Drive
                                 Drive,, Arlington VA 22202-4704

      SUBJEC
      SUBJECT   T : USACE Response to OIG Draft Report - ARRA , USACE, Civil Works, Data
      Qualiity Review Processes for the Per
      Qual                                Periiod Ending December 31 , 2009
                                                                       2009,, Were Not
      Effectiive (Project No
      Effect                   D2009-- DOOOFH
                          No.. D2009   DOOOFH--0182
                                               0182..010)


      1. Reference DODIG Draft Report
                               Report,, SAB
                                        SAB,, dated 10 November 2010
                                                                2010..

      2 . HQs USACE concur with the comments and recommendations . The USACE
      response is attached
                  attached..

      3. For further questions or concerns
                                  concems , please contact the unders igned at
      or email at l                                I I
                                Click to add JPEG file
      Encll
      Enc                               ~~      Deputy Chief
                                                HQUSACE Intemal Review Office




                                                                17
                            USACE Respon se to DODIG Draft Report
                       ARRA Civil Works Data Quality Review Processes
                          For the Period Ending 31 December 2009
                                     Were No l Effecti ve
                               P roj ect No. D2009-DOOOFH-OIS2.010



1. Implement procedures to ensure the U.S. Army Corps of Engineers, Civil Works.
Major Subordinate Commands, District Centers, and Field Operat ing Activities
follow updated USACE internal Recovery Act guidance and properly:

   a.   Provide key award information to all Recovery Act award recipients.
   FRAGO 27, released 2-1 March 2010. ins/rllcled Dis/riels to send an initial informative leiter
   /0 Reeo,'ery Act Recipiellls de/ailing reporting requirements IInder the Recovery Act, (md
   provides key award information required under OMB M·JO·08. In addition (0 the initial
   leller o/requirement, Districts are required 10 send a quarterly leller detailing: reporting
   requirements, the upcoming Reporting timeline as well as key award information. Districts
   are instructed to keep hard copies ofall leiters sent to recipients (Ult! certify 100%
   compliance to HQ USACE prior to the beginning ofthe reporting period.

                               Click to add JPEG file
   b. Notify all noncompliant recipients of their failure to submit required
   reports.
   FRAGO 26, released 09 March 2010, instructed Districls to contact allY remaining non·
   compliant recipients by day 5/6 ofthe ;nit;al submission period. HQ USACE proVided all
   districts with a/orm letter which serves (IS a second reminder 10 the recipiems who had lIot yet
   reported that the report sllbmissio" period is abol/t 10 close ami describes the pellalty for 11011­
   reporring (Leller #3, Tab B, FRAGO # 26).
   At the close o/the i"ilial submission period. remailling non-compJiam recipienls are.llofijied o/Iiteir
  /ailure /0 slIbmif a reporr (Uld Ii/llt (111 illierim past performonce report will be Sllbmilled reflecting
   fhis 1I01l-compliallce (Leller #5, Tab B, FRAGO # 26).
   Non.Complian t Recipients receive/urther instruction on the consequences resultingfrom
   continlled non-compliance in/lltllre quarters prior to the/allowing reporting period (Lefler
   #6 alld #7, Tab B, FRAGO # 26)

   c. Review 100 percent of Recovery Act recipient reports, in accordance with
   Recovery Act guidance to identify differences not recognized by the
   ARRA val idation tool.
   FRAGO 27; released 24 March 2010; requires Districts 10 review allfields required IInder
   OMS IO-M-14 regardless ofcoverage by Ihe validalion 100/ (Tab D. FRAGa #27). HQ
   assists in the verification o/the FRAGO 27 requirement by a taking a random sample 0/
   recipient reports/or manual ewdllalion.




                                                                  18
2. Develop and implement U.S. Anny Corps of Engineers data quality review
processes and procedures, in accordance with Office of Management and Budget
(OMS) Memorandum M-IO-08. "Updated Guidance on the American Recovery
and Reinvestment Act - Data Quality, Non-Reporting Recipients, Reporting of
Job Estimates," December 18, 2009, to:

      a. Accurately identify all significant errors, material omissions, and
      non-compliant recipients.
      '/1,e ARRA Validmion 100/ was updated during the April and July time periods to assisl
      districts illihe accurate identification 0/all lion-compliant recipients, Significant errors,
      material omissiolls and other data anomalies listed in OMB 10-M-OB. Reporting
      in/ormation is availllhie to agency reviewers thru the ARRA Validation 1001. In/ormation
      is available/rom day 2 o/the reporting period IInlil (he end o/(he Continuous Quality
      Assurance period and updated on a daily hasis.

      b. Obtain the amount invoiced for the quarter to accurately validate the
      number of'~obs retained or created."
      Quarterly invoiced amount datajrom Ihe Corps 'financial system, CEFMS, was included
      in the daily review process beginning in the July 2010 reporting period. The data was
      used in conjunction with Corps' developell FTE estimates to evaluate recipient reported
      FTE/or accuracy.
                              Click to add JPEG file
      c. Identify recipients who under-report the number of "jobs retained or
      created."
      The lIbility to e ...·(,[uate under-reported fiE. added 10 the ARRA Validation Tool during
      Ihe July 2010 reporting period, al/ows agency reviewers to idemify recipients reporting
      FTI:.' lotals below USAC£ projected (olals based on Ihe action '::i appropriation.

      d. Confirm each quarter that U, S. Army Corps of Engineers, Civil Works,
      Location personnel have properly distributed key award information and
      notified all noncompliant recipients.

      FRAGO 26, released 09 March 20 10, instructed Districts to contact any remaining non­
      compliam recipiellls by day j /6 a/the initial submission period. HQ USACE provided all
      districts with a/orm leuer which serves as a second reminder to the recipients who luu/lIot yet
      reported that the report submisl'ioll period ;s abOUlIa close and describes the penalty for 110 11­
      reporting (Leller #3, Tab B. FRAGO # 26).
      Districls are instrllcted 10 keep hard copies 0/01/ lelfers senl to recipients m1d certify
      JOOOA compliance 10 HQ USACE prior to the beginning a/the reporting period.




                                                               19
